PENSION BENEFIT GUARANTY CORPORATION




  SEMIANNUAL REPORT
   TO THE CONGRESS




  OFFICE OF INSPECTOR GENERAL


      OCTOBER 1, 1997 - MARCH 31, 1998
                                                                      Office of Inspector General

                                                                                April 30, 1998



Alexis Herman
Chairman, PBGC Board of Directors

       It is my pleasure to submit this eighteenth semiannual report to the Congress. This
report summarizes the major activities and accomplishments of the Office of Inspector
General (OIG) for the six-month period ending March 31, 1998. Our accomplishments were
made possible by the dedicated efforts of a committed and professional staff.

        Our work this reporting period has resulted in significant operational benefit to
PBGC. Our efforts were directed to increased economy, efficiency, and quality of PBGC's
operations and combating actual or potential occurrences of waste, fraud, and misuse of
Government funds. My office issued six (6) reports in the audit area. The audits include
reports of unqualified opinions on the financial statements and management’s assertions
about the effectiveness of its financial controls, and a report on PBGC’s compliance with
laws and regulations.

        In the investigative area, we opened nineteen (19) and closed twenty-five (25)
investigations. We operate a post office box and "1-800" Hotline which continues to
receive calls and mail primarily from pension plan participants. Seventy-three percent
(73%) of these were "first-time" contacts that were referred directly to the agency for
customer assistance. Additionally, we opened two (2) investigative cases as a result of the
Hotline. Our investigative activities resulted in a record recovery of funds of almost
$335,000. Once again, the need for an additional federal employee investigator remains
mission critical. The use of contract investigators fails to fully address our needs. We
continue to raise these resource concerns to agency management.

        The results achieved by the OIG were possible because of the support of the PBGC’s
Executive Director, managers, employees, and the Congress. I look forward to continuing
the productive professional working relationship as we strive to maintain the highest levels
of integrity and quality in the Corporation's programs and operations, and helping PBGC
meet its important challenges.


                                            Sincerely,



                                            Wayne Robert Poll
                                            Inspector General


Enclosure
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL               PENSION BENEFIT GUARANTY CORPORATION




EXECUTIVE SUMMARY
This is the eighteenth semiannual report to the Congress summarizing the activities and
accomplishments of the Pension Benefit Guaranty Corporation (PBGC) Office of Inspector
General (OIG) for the period October 1, 1997 through March 31, 1998. Our efforts were directed
toward performing audits, inspections, and evaluations of the Corporation's programs and
operations, conducting several large and complex investigations, and providing technical
assistance and advice on Corporate programs. In the audit area, we issued six (6) reports,
including:

       • audit of PBGC’s 1997 financial statements, which resulted in unqualified opinions with
         respect to the financial statements and management’s assertion concerning the
         operation of financial management controls, and a report on PBGC’s compliance with
         laws and regulations (see pages 2 and 3);

       • audit of sensitive payments made to senior Corporation officials related to travel,
         honoraria and gifts, and executive pay, with recommendations (see page 3);

       • agreed-upon procedures to evaluate PBGC’s submission of certain data to the
         Department of Treasury in preparation for consolidated financial statements of the
         United States (see page 3).

In the investigative area, we opened nineteen (19) new investigative cases during the reporting
period, and closed twenty-five (25) cases. Those cases closed this period included:

       • theft of multiple pension checks resulting in a conviction, incarceration, and restitution
         (see page 9);

       • allegations of political influence in the selection of PBGC’s leased office space
         (see page 9); and

       • allegations of improper hiring practices through the use of a restrictive selective factor
         (see page 9).




                                                 i
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                               PENSION BENEFIT GUARANTY CORPORATION




TABLE OF CONTENTS
               LETTER TO THE CHAIRMAN

               EXECUTIVE SUMMARY ....................................................................                i

               TABLE OF CONTENTS.......................................................................              ii

               LIST OF TABLES ................................................................................       iii

               INTRODUCTION..................................................................................        1

                         The Pension Benefit Guaranty Corporation
                         The Office of Inspector General

               AUDIT ACTIVITIES ............................................................................         2

                         Overview
                         Audits, Inspections and Evaluations
                         Audit Follow-up and Resolution
                         Access to Information
                         PBGC Management - Inspector General Disagreements

               INVESTIGATORY ACTIVITIES..........................................................                    8

                         Overview
                         Activity This Period
                         Significant Investigations

               OTHER OFFICE OF INSPECTOR GENERAL ACTIVITIES .............                                            11

                         Review of Proposed Statutory and Regulatory Changes
                         Liaison With the United States General Accounting Office


               GLOSSARY...........................................................................................   13




                                                              ii
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                  PENSION BENEFIT GUARANTY CORPORATION




LIST OF TABLES
       TABLE 1 - INSPECTOR GENERAL ISSUED REPORTS .........................................       5

       TABLE 2 - REPORTS ISSUED WITH QUESTIONED COSTS ...............................             6

       TABLE 3 - REPORTS ISSUED WITH RECOMMENDATIONS
                  THAT FUNDS BE PUT TO BETTER USE ...........................................     7

       TABLE 4 - STATISTICAL TABLES OF INVESTIGATIONS ...................................         10

       TABLE 5 - CROSS-REFERENCE TO REPORTING REQUIREMENTS
                  OF THE INSPECTOR GENERAL ACT.................................................   12




                                                   iii
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




INTRODUCTION
THE PENSION BENEFIT GUARANTY CORPORATION
     The Pension Benefit Guaranty Corporation (PBGC) was established under Title
     IV of the Employee Retirement Income Security Act of 1974 (ERISA), as amended,
     5 U.S.C. §§ 1301-1461, as a self-financing, wholly-owned Federal Government
     Corporation to administer the pension insurance program. ERISA requires that
     PBGC (1) encourage the continuation and maintenance of voluntary private
     pension plans; (2) provide for the timely and uninterrupted payment of pension
     benefits to participants and beneficiaries; and (3) maintain premiums at the
     lowest level consistent with carrying out PBGC's obligations.

     For about 42 million Americans, the PBGC provides assurance that their
     retirement benefits are safe now and for the future. The PBGC protects the
     pensions of participants in certain defined benefit pension plans, i.e., plans that
     promise to pay definitely determinable retirement benefits. Such defined benefit
     pension plans may be sponsored individually or jointly by employers and by
     unions. Currently, there are nearly 206,000 participants receiving benefit
     payments from PBGC. Additionally, in its fiscal year 1997 Financial Statement,
     the PBGC reported that it has assets of $15.9 billion and liabilities of $12.2
     billion.



THE OFFICE OF INSPECTOR GENERAL
     One of the strategic goals of the OIG is to assist the PBGC in operating more
     efficiently and effectively by identifying ways to improve the PBGC's programs.
     To accomplish this goal, the OIG conducts agency audits, inspections, and
     investigations, and makes recommendations to PBGC management as
     appropriate. In addition, the OIG is required statutorily to inform the agency
     head of fraud and other serious problems, abuses, and deficiencies relating to the
     programs and operations administered or financed by the PBGC, recommend
     corrective action concerning such problems, and report on the progress made in
     implementing corrective actions.

     The OIG staff consists of eleven (11) employees, of which two are investigators. A
     third investigator remains a mission critical need. We continue to accomplish
     our investigative program through the use of contract investigators, being
     mindful that conducting criminal investigations is an inherently governmental
     function.

     The Chief Financial Officers Act of 1990 (CFO Act) requires that a government
     corporation's financial statements be audited by the Inspector General, unless
     preempted by GAO. The OIG contracted for an Independent Public Accountant
     (IPA) to perform the audit of the Corporation’s FY 1997 financial statements.




MARCH 1998                                                           PAGE 1
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




AUDIT ACTIVITIES
OVERVIEW
     The OIG provides independent analyses to management on a full range of
     PBGC's operations including programs, activities, functions, and funds. The
     OIG has full discretion in establishing audit objectives, plans, and priorities.
     During this reporting period, the OIG issued six (6) reports (see TABLE 1) to help
     PBGC reduce costs and strengthen management controls. Below is a summary
     of those reports. Our audits comply with the United States General Accounting
     Office’s Government Auditing Standards, while the inspections comply with
     quality standards for inspections published by the President's Council on
     Integrity and Efficiency.


AUDITS, INSPECTIONS AND EVALUATIONS

     AUDIT OF THE PENSION BENEFIT GUARANTY
     CORPORATION’S FISCAL YEARS 1997 AND 1996
     FINANCIAL STATEMENTS
     (98-2/23126-1) and (98-3/23126-2)

     The Office of Inspector General engaged Price Waterhouse, LLP (PW), to conduct
     an audit of PBGC’s financial statements of the Single-Employer Fund and
     Multiemployer Fund for the fiscal years (FY) ended September 30, 1997 and 1996.
     The audit was performed under the direction and general supervision of the OIG.

     The audit resulted in three reports. Unqualified opinions were issued on the
     financial statements and management’s assertion concerning the operation of
     the financial management controls.    In addition, we reported on PBGC’s
     compliance with laws and regulations.

     •    The report on the financial statements opines that they present fairly, in all
          material respects, (1) the financial position of the Single-Employer and
          Multiemployer Funds administered by PBGC as of September 30, 1997 and
          1996, and (2) the results of their operations and cash flows for the years
          then ended, in conformity with generally accepted accounting principles.

     •    The report on internal controls notes one reportable condition. Systems
          design and integration may inhibit management’s ability to accumulate and
          summarize information required for necessary reports. PBGC had not yet
          formalized and implemented a Systems Development Life Cycle (SDLC)
          methodology to monitor the progress and development of financial
          management systems.          PBGC’s lack of formal methodologies and
          requirements to monitor the development and support of its business
          applications, combined with the lack of specific criteria for ensuring the
          continued effectiveness of operational and financial management controls
          once systems are implemented, will continue to impact current and future
          systems development efforts.
     •    The report on compliance with applicable laws and regulations states that,
          with respect to items tested, no instances of non-compliance were disclosed.


MARCH 1998                                                           PAGE 2
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL          PENSION BENEFIT GUARANTY CORPORATION



          Tests of PBGC’s compliance include certain provisions of the Employee
          Retirement Income Security Act of 1974, the Federal Managers’ Financial
          Integrity Act of 1982, the Retirement Protection Act of 1994, the Chief
          Financial Officers Act of 1990, and the Anti-Deficiency Act (limited to
          comparing the Corporation’s recorded payments to related authorized
          limitations on certain payments and apportionments).

     The OIG issued a report with these three opinions (98-3/23126-2).

     In addition, the OIG issued a single page report which PBGC incorporated into
     its Fiscal Year 1997 Annual Report (98-2/23126-1).


     AUDIT OF SENSITIVE PAYMENTS
     FOR FISCAL YEAR 1997 (98-4/23129)

     The OIG performed an audit of Sensitive Payments made to senior level officials
     in FY 1997. Sensitive payments encompass a wide range of executive functions
     including executive compensation, travel, official entertainment funds,
     unvouchered expenditures, consulting services, speaking honoraria and gifts,
     and executive perquisites. Sensitive payment issues are addressed in various
     laws, regulations, policies and procedures, and codes of ethics and conduct for
     government employees. Prior audits had identified control problems over
     processing executive travel vouchers. Again, our review disclosed that some
     travel vouchers were not submitted timely in accordance with PBGC policy. In
     addition, we found that PBGC was inconsistent in adhering to established
     polices and procedures requiring notification of senior level officials of their
     overdue travel vouchers.

     Our audit also questioned travel expenses of $4,071.49 incurred by ten
     government employees who attended the funeral of PBGC’s former Executive
     Director. Our review disclosed that there was no documentation supporting
     management’s decision to authorize official travel for the employees and its
     determination that these employees’ travel was essential for government
     business.

     REPORT ON AGREED-UPON
     PROCEDURES FOR FACTS DATA
     (98-6/23126-3)

     The General Accounting Office (GAO) requested that the OIG perform specific
     procedures related to the Schedule of Summarized FACTS Data submitted by
     PBGC to the Department of the Treasury (Treasury), which included a
     department level Adjusted Trial Balance report and selected footnote data. The
     procedures were performed solely to assist Treasury in the preparation of
     consolidated financial statements of the United States for the year ended
     September 30, 1997 and to assist GAO in the audit of those statements.




MARCH 1998                                                         PAGE 3
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL         PENSION BENEFIT GUARANTY CORPORATION




AUDIT FOLLOW-UP AND RESOLUTION
     The audit follow-up system at PBGC is integral to effective management and is a
     shared responsibility of PBGC management and the OIG. PBGC has established
     an audit follow-up system to document management's actions and assure
     prompt resolution of audit recommendations. Moreover, this OIG system
     provides for a record of actions taken by PBGC management on OIG and GAO
     recommendations.

     The Office of Management and Budget (OMB) Circular A-50 requires that audit
     recommendations be resolved within six (6) months of issuance. The OMB
     guidance provides that audit recommendations are resolved when Agency
     management and the OIG reach agreement on firm plans of action to correct
     reported weaknesses.      Resolution, however, does not mean an audit
     recommendation is closed. The OIG closes audit recommendations only when
     corrective actions have been completed by the Agency.

     The OIG issued the Semiannual Listing of Audit Recommendations (98-1/32087)
     which contained one hundred and one (101) audit recommendations of which
     thirty-two (32) were outstanding audit recommendations from the prior reporting
     period. Of these open audit recommendations, the OIG’s Semiannual Report on
     Follow-up of Audit Recommendations (98-8/32088) reported thirty-one (31) audit
     recommendations that agency management represented as closed and in which
     the OIG concurred. In addition, the OIG administratively closed four (4)
     recommendations. Sixty-six (66) audit recommendations remained open on
     March 31, 1998.



ACCESS TO INFORMATION
     Under the Act, the Inspector General is to have unfettered access to all agency
     records, information, or assistance when engaged in an investigation or audit.
     Whenever access to requested records, information or assistance is
     unreasonably refused or not provided, the Inspector General must promptly
     report the denial to the Agency Head. During this six-month reporting period,
     the Inspector General’s access to information was not restricted.



PBGC MANAGEMENT - INSPECTOR GENERAL
DISAGREEMENTS
     Semiannually, the OIG must report the status of all unresolved audit reports
     that are more than six months old to the Agency Head. These reports include:
     (1) reason(s) for unresolved reports and a timetable for their resolution; (2)
     actions taken or proposed on all unresolved reports or recommendations; and (3)
     age of unresolved recommendations. For this reporting period, there were no
     unresolved audit reports in which PBGC management decisions are pending.




MARCH 1998                                                        PAGE 4
        SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                PENSION BENEFIT GUARANTY CORPORATION




                                          TABLE 1

                       INSPECTOR GENERAL ISSUED REPORTS
                          For The Six-month Period Ending
                                 MARCH 31, 1998

                                                       DOLLAR        DOLLAR             DOLLAR
                                                      VALUE OF      VALUE OF           VALUE OF
REPORT                                   DATE        QUESTIONED      BETTER       UNSUPPORTED
NUMBER            REPORT TITLE          ISSUED         C OSTS      USED FUNDS        C OSTS

Audits

98-2/      Audit of the Pension         3/23/98          -0-           -0-               -0-
23126-1    Benefit Guaranty
           Corporation’s Fiscal Years
           1997 and 1996 Financial
           Statements (Single Page
           Report)
98-3/      Audit of the Pension         3/23/98          -0-           -0-               -0-
23126-2    Benefit Guaranty
           Corporation’s Fiscal Years
           1997 and 1996 Financial
           Statements
98-4/      Audit of Sensitive           3/31/98       $4,071.49        -0-               -0-
23129      Payments for Fiscal Year
           1997

Evaluations

98-1/      Semiannual Listing of Audit 1/30/98            -0-           -0-               -0-
32087      Recommendations
98-6/      Independent Accountant’s    3/3/98             -0-           -0-               -0-
23126-3    Report on Applying Agreed
           Upon Procedures for FACTS
           Data
98-8/      Semiannual Report on        3/31/98            -0-           -0-               -0-
32088      Follow-up of Audit
           Recommendations




MARCH 1998                                                                    PAGE 5
         SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                            PENSION BENEFIT GUARANTY CORPORATION




                                                  TABLE 2      *


                        REPORTS ISSUED WITH QUESTIONED COSTS
                            For The Six-month Period Ending
                                    MARCH 31, 1998


                                                              NUMBER
                                                                   OF          QUESTIONED      UNSUPPORTED
                                                             REPORTS             C OSTS           C OSTS

 A.   For which no management decision has
      been made by the commencement of the
      reporting period                                             0                -0-             -0-

 B.   Which were issued during the reporting
      period                                                       1           $4,071.49            -0-

      Subtotal ( Add A & B)                                        1           $4,071.49            -0-

 C.   For which a management decision was
      made during the reporting period                             1           $4,071.49            -0-

      (i)       dollar value of disallowed costs                   1           $4,071.49            -0-

      (ii)      dollar value of costs not
                disallowed                                         0                -0-             - 0-

 D.   For which no management decision has
      been made by the end of the reporting
      period                                                       0                -0-             -0-

 E.   Reports for which no management
      decision was made within six months of
      issuance                                                     0                -0-             -0-




* This statistical information is required by the Inspector General Act of 1978, as amended.




MARCH 1998                                                                                 PAGE 6
         SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                            PENSION BENEFIT GUARANTY CORPORATION




                                                  TABLE 3      *


                        REPORTS ISSUED WITH RECOMMENDATIONS
                           THAT FUNDS BE PUT TO BETTER USE
                             For The Six-month Period Ending
                                    MARCH 31, 1998


                                                                                 NUMBER
                                                                                    OF              DOLLAR
                                                                                 REPORTS            VALUE

 A.   For which no management decision has been made by
      the commencement of the reporting period                                       0               -0-

 B.   Which were issued during the reporting period                                  0               -0-

      Subtotal ( Add A & B)                                                          0               -0-

 C.   For which a management decision was made during the
      reporting period                                                               0               -0-

      (i)         dollar value of recommendations that were
                  agreed to by management                                            0               -0-

             --   based on proposed management action                                0               -0-

             --   based on proposed legislative action                               0               -0-

      (ii)        dollar value of recommendations that were not
                  agreed to by management                                            0               -0-

 D.   For which no management decision has been made by
      the end of the reporting period                                                0               -0-

      Reports for which no management decision was made
      within six months of issuance                                                  0               -0-

                    .




* This statistical information is required by the Inspector General Act of 1978, as amended.




MARCH 1998                                                                                 PAGE 7
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




INVESTIGATORY ACTIVITIES
OVERVIEW
             The Inspector General is authorized to receive and investigate complaints
             from PBGC employees, the public, and other sources concerning the
             possible existence of an activity constituting a violation of law, rule, or
             regulation; mismanagement; gross waste of funds; abuse of authority; or
             a substantial and specific danger to the public health and safety.
             Individuals may disclose information or make complaints to the Inspector
             General through the OIG "Hotline." (See announcement on back cover
             page.) The Inspector General has a policy to protect the legal rights of
             whistleblowers and complainants. At all times, the Inspector General
             takes reasonable precautions not to disclose the identity of the
             complainant without that person's consent.

ACTIVITY THIS PERIOD
             The OIG received 19 complaints or allegations, and closed 25
             investigative cases during the reporting period. As of March 31, 1998, 49
             cases remain open (see Table 4 for investigative program statistics).

     OIG HOTLINE

             The OIG operates a separate "1-800" hotline telephone number and a
             post office box. The Hotline telephone is answered by an investigative
             staff assistant for a two hour period, Monday through Friday; at all other
             times there is a message that provides information about the Hotline
             service. For the period October 1, 1997 through March 31, 1998, we
             received a total of 33 Hotline inquiries.

             From our intake analysis, 73% of the mail and telephone contacts were
             first-time inquiries relating to pension benefit questions, which were
             referred to the agency for action. We opened 2 cases from our Hotline
             contacts.

     OIG CONTINUES PROACTIVE EFFORTS WITH
     AGENCY OFFICIALS TO REDUCE PENSION FRAUD

             The OIG continues to work with agency personnel to identify instances
             in which checks have been issued to pension plan participants after their
             death.     During this period, we concluded several pension fraud
             investigations, one of which resulted in prosecution (see discussion next
             page).   In another investigation, we identified the individual who
             fraudulently received the checks and obtained admissions of the theft,
             consulted with prosecutive agencies, and referred these matters back to
             the agency for pursuit of collection activities.

             We are scheduled to present a briefing on pension fraud issues at a PBGC
             conference of employees and contractors during May, 1998. This
             conference is an excellent opportunity for the OIG to present indicators
             of pension fraud, an overview of successful prosecutions, and agency
             actions that can be taken to minimize the potential for misappropriation
             of pension benefits.



MARCH 1998                                                           PAGE 8
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




             SIGNIFICANT INVESTIGATIONS
             PROSECUTION FOR THEFT
             OF PENSION BENEFITS

             The OIG continues to vigorously pursue allegations of fraud related to
             pension benefits. One investigation, worked jointly with the Federal
             Bureau of Investigation and the United States Attorney‘s Office in the
             Eastern District of Arkansas, resulted in a 17 count indictment of an
             individual who stole over $17,000 of pension checks issued by PBGC. In
             this case, pension payments continued to a deceased participant for more
             than 8 years after his death. The subject of the investigation forged the
             participant’s signature on withdrawal slips and made numerous
             withdrawals from the participant’s bank account. On January 9, 1998,
             the subject pled guilty to 1 count of mail fraud and agreed to make
             restitution to the PBGC. On March 31, 1998, the subject was sentenced
             to 4 months custody and 3 years supervised released.

             ALLEGATION OF POSSIBLE
             INFLUENCE PEDDLING

             Based on a series of newspaper articles, the Offices of Inspector General
             of PBGC and the Department of Labor were asked by their respective
             agency heads to conduct a joint investigation into allegations of
             improper conduct in the selection of the leased property in which PBGC
             has its offices. The newspaper articles alleged that $375,000 was paid by
             one of the potential landlords, who eventually received the contract, to a
             highly placed political consultant to influence the selection of the lease.
             The investigation concluded that no government employees had engaged
             in any wrongdoing, and the procurement actions and the decision to
             lease the particular building had been proper, with no political influence.
             The landlord agreed to pay $317,500 to resolve the matter.

             ALLEGATION OF IMPROPER
             HIRING PRACTICES

             The OIG received an allegation that various selection procedures were
             improper, including: (1) the selective factor specified in the vacancy
             announcement was too restrictive, (2) federal regulations governing
             hiring of displaced employees were not followed, (3) the appointee was not
             the most qualified applicant for the job, and (4) the appointee had
             information not available to other applicants due to assignment on the
             department’s reorganization team. A selective factor is the description of
             specialized “knowledge, skills, and abilities” that an applicant must have
             to be able to perform the job. We found the evidence did support that the
             selective factor was too restrictive, and the appointee was not the only
             nor the most qualified applicant for the position. Because we found the
             selective factor was improper, we could not determine whether PBGC
             complied with the regulations governing hiring of displaced federal
             employees.




MARCH 1998                                                           PAGE 9
         SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                             PENSION BENEFIT GUARANTY CORPORATION



                                                     TABLE 4

                          STATISTICAL TABLES OF INVESTIGATIONS
                              For The Six-month Period Ending
                                     MARCH 31, 1998


CASE LOAD

                   Pending beginning of period                                                55
                   Opened this period**                                                       19
                   Closed this period                                                         25
                   Pending end of period ***                                                  49


WRONGDOING ALLEGED (CASES OPENED)

                   Fraud, Waste & Abuse                                                          8
                   Wrong Doing                                                                   4
                   Theft                                                                         2
                   Improprieties Relating to Pension Benefits                                    3
                   Customer Service Problems                                                     2


RESULT OF CASES CLOSED

                   Allegation disproved or not substantiated                                     5
                   Referred to agency for corrective action                                      9
                   Findings reported; no agency action requested                                 2
                   Administrative Closings                                                       4
                   Prosecutions & Civil Settlements                                              2
                      Monetary recovery ($334,861)
                   Prosecution declined; referred for agency                                     3
                       collection action   ($6,160)


HOTLINE AND MAIL INQUIRIES

                   Received this period                                                       33

                             First time caller referrals to agency                   23
                             Mail referrals to agency                                 1
                             OIG Customer Assistance                                  7
                             Cases opened                                             2




** Of the nineteen new cases opened this period, two resulted from Hotline and mail inquiries.


*** Thirty-five of the forty-nine investigative cases that are open are from prior reporting periods.



MARCH 1998                                                                                   PAGE 10
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




OTHER OFFICE OF INSPECTOR
GENERAL ACTIVITIES
REVIEW OF PROPOSED STATUTORY
AND REGULATORY CHANGES

             To comply with the IG Act, the OIG Legal Counsel is notified by the Office
             of the General Counsel when the agency is proposing legislative and
             regulatory changes. During this period, we reviewed and commented on
             three proposed amendments to regulations.


LIAISON WITH THE UNITED STATES
GENERAL ACCOUNTING OFFICE
             The OIG maintains close liaison with GAO. The GAO had only one on-
             going review effort at PBGC as of March 31, 1998: Study of PBGC’s Single
             and Multi-Employer Insurance Programs.




MARCH 1998                                                           PAGE 11
        SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                         PENSION BENEFIT GUARANTY CORPORATION



                                                TABLE 5

                            CROSS-REFERENCE TO REPORTING
                      REQUIREMENTS OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the Inspector
General Act of 1978, as amended, to the specific pages in the report where they are
addressed.


  Inspector General
    Act Reference       Reporting     Requirements                                                Page


Section 4 (a) (2)       Review of legislation and regulations.                                     11

Section 5 (a) (1)       Significant problems, abuses, and deficiencies.                           2 - 3,
                                                                                                    9

Section 5 (a) (2)       Recommendations with respect to significant problems, abuses,             2 - 3,
                        and deficiencies.                                                           9

Section 5 (a) (3)       Prior significant recommendations on which corrective actions               4
                        has not been completed.

Section 5 (a) (4)       Matters referred to prosecutive authorities.                               10

Section 5 (a) (5)       Summary of instances where information was refused.                         4


Section 5 (a) (6)       List of audit reports by subject matter, showing dollar value of            5
                        questioned costs and funds put to better use.


Section 5 (a) (7)       Summary of each particularly significant report.                          2 - 3,
                                                                                                    9

Section 5 (a) (8)       Statistical table showing number of reports and dollar value of             6
                        questioned costs.

Section 5 (a) (9)       Statistical table showing number of reports and dollar value of             7
                        recommendations that funds be put to better use.


Section 5 (a) (10)      Summary of each audit issued before this reporting period for             None
                        which no management decision was made by end of reporting
                        period.

Section 5 (a) (11)      Significant revised management decisions.                                 None

Section 5 (a) (12)      Significant management decisions with which the Inspector                   4
                        General disagrees.




MARCH 1998                                                                              PAGE 12
       SEMIANNUAL REPORT OF THE INSPECTOR GENERAL               PENSION BENEFIT GUARANTY CORPORATION




GLOSSARY
The following defines the terms used in this report.

Questioned Cost         A cost the OIG has questioned because of an alleged violation
                        of law, regulations, contract, grant, cooperative agreement, or
                        other agreement or document governing the expenditure of
                        funds; such cost is not supported by adequate documentation;
                        or the expenditure of funds for the intended purpose is
                        unnecessary or unreasonable.

Unsupported Cost        A cost the OIG has questioned because of a lack of adequate
                        documentation at time of the audit.

Disallowed Cost         A questioned cost that management, in a management decision,
                        has sustained or agreed should not be charged to the
                        government.

Funds To Be Put To Funds the OIG has identified in an audit recommendation that
Better Use         could be used more efficiently by reducing outlays,
                   deobligating program or operational funds, avoiding
                   unnecessary expenditures, or taking other efficiency measures.

Management              Management's evaluation of audit findings and
Decision                recommendations and issuance of a final decision concerning
                        management's response to such findings and
                        recommendations.

Final Action            The completion of all management actions -- that are described
                        in a management decision -- with respect to audit findings and
                        recommendations. If management concluded no actions were
                        necessary, final action occurs when a management decision is
                        issued.


Misconduct              Action of employees or contractors that violates law, rules, or
                        regulations for which corrective action is warranted.




MARCH 1998                                                                 PAGE 13
     SEMIANNUAL REPORT OF THE INSPECTOR GENERAL   PENSION BENEFIT GUARANTY CORPORATION




MARCH 1998                                                  PAGE 14
IF   YOU WANT TO REPORT OR DISCUSS CONFIDEN-
TIALLY ANY INSTANCE OF MISCONDUCT, FRAUD,
WASTE, ABUSE, OR MISMANAGEMENT, PLEASE

CONTACT THE   OFFICE OF INSPECTOR GENERAL.


You can telephone:

        The Inspector General's HOTLINE

                1-800-303-9737


Or you can write:

     Pension Benefit Guaranty Corporation
          Office of Inspector General
                P.O. Box 34770
         Washington, D.C. 20043-4770
